SUPREME COURT OF THE UNITED STATES

No. 19-430
sich santo eee nance GOES HERERO Se BETTER teo eee innEamENemeccUT Tee X
ATHENA DIAGNOSTICS, INC., ET AL.,
Petitioners,
v.
MAYO COLLABORATIVE SERVICES, LLC, DBA MAY MEDICAL
LABORATORIES, ET AL.,
Respondents.
wen en een een ene ene eee en nee nee e eee e ence ee en nee ene enn e eee e een n ene een eee ee een eeeennneenneeee xX
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF
AMICUS CURIAE BLAINE LABORATORIES, INC. IN SUPPORT OF
NEITHER PARTY contains 1522 words, including footnotes and excluding the
sections enumerated by Rule 33.1(d), and therefore complies with Rule 33.1(g).

This certificate was prepared in reliance on the word count of the word-
processing system (Microsoft Word 2013) used to prepare the brief.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on _ NOW f, 2esF_

  

   

zo
KIRK M. HARTUNG —
Counsel for Amicus Curize

Sworn to and subscribed before me this / day of November, 2019.
he Be

plac, ALICE A. PENDERGAST
Commission Hamner yen

. sommission Expires
Pune LOPA

2NOn

owe
